OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/AFGHANISTAN’S
AFGHANISTAN VOUCHERS
FOR INCREASED
PRODUCTIVE AGRICULTURE
(AVIPA) PROGRAM
AUDIT REPORT NO. 5-306-10-008-P
APRIL 20, 2010




MANILA, PHILIPPINES 

Office of Inspector General


April 20, 2010

MEMORANDUM

TO:       	          USAID/Afghanistan Mission Director, William M. Frej

FROM: 	              Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:	            Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased
                     Productive Agriculture (AVIPA) Program (Audit Report No. 5-306-10-008-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on the draft report and included the comments in their
entirety in appendix II.

This report contains three recommendations to assist the mission in improving certain
aspects of the AVIPA program. On the basis of the information provided by the mission in
response to the draft report, we determined that a management decision has been
reached on recommendations 2 and 3 but such a decision has not yet been reached on
recommendation 1. A determination of final action will be made by the Audit Performance
and Compliance Division upon completion of the planned corrective actions addressing
these two recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during
this audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
                       P   P




Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS 

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 4 


Has USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive Agriculture 

(AVIPA) Program been achieving its main goals of increasing wheat production and 

carrying out agriculture-related stabilization activities? 


     Reported Results Were Not Reliable .......................................................................... 6 


     Stabilization Activities Were Not Being Implemented on the Scale
     Anticipated .................................................................................................................. 9 


Evaluation of Management Comments ....................................................................... 11 


Appendix I—Scope and Methodology......................................................................... 12 


Appendix II—Management Comments........................................................................ 14 

SUMMARY OF RESULTS

USAID’s Afghanistan Vouchers for Increased Productive Agriculture (AVIPA) Program
was originally intended as an emergency response to mitigate the impact of a growing
food crisis in Afghanistan. This crisis was brought on by a rise in global wheat prices
and a severe drought during the 2007─2008 crop seasons that caused a decline in
domestic wheat production. The program was initially designed to provide wheat seed
and fertilizer to drought-affected subsistence farmers to help them increase wheat
production in targeted areas of the country.

However, following the initial year of operations, the focus of the program shifted toward
implementing agriculture-related stabilization activities in Afghanistan’s southern
provinces of Helmand and Kandahar. These activities were intended to be carried out
immediately following the military’s planned surge to secure the two provinces during the
summer of 2009. The stabilization activities included (1) cash-for-work projects (e.g.,
clearing of irrigation canals), (2) a small-grants program that provided farming equipment
and tools, and (3) the provision of agricultural packages consisting of seeds, saplings,
and other inputs to help farmers produce other types of agricultural products.

To implement the program, USAID/Afghanistan signed a cooperative agreement with
International Relief and Development for the period from September 25, 2008 to
August 31, 2010. Pursuant to the change of focus described above, the program’s
authorized funding was increased fivefold, from $60 million to $360 million. As of
December 31, 2009, cumulative obligations under the program totaled approximately
$185.2 million, and expenditures were about $93.4 million.

The purpose of this audit was to determine whether the program was achieving its main
goals of increasing wheat production in Afghanistan and implementing agriculture-
related stabilization activities in the country’s southern region. (See page 3.)

The audit found that the program had contributed to the country’s increase in wheat
production; however, the program’s role in this increase was unclear, since the audit
determined that some of the reported results were not reliable. In addition, the audit
noted that the program’s stabilization activities in the country’s southern provinces were
not being implemented as widely as originally planned.

Afghanistan experienced a substantial increase in wheat production from 2008 to 2009
that was―according to an internal monitoring and evaluation report―primarily
attributable to abundant rainfall in 2009. Nevertheless, the report concluded that the
agricultural inputs (wheat seed and fertilizer) furnished under AVIPA during its initial year
of operations had also contributed to the increase. During this period, the program
reported distributing wheat seed and/or fertilizer to 296,920 farmers―achieving its
planned target and benefiting hundreds of thousands of farmers scattered throughout
northern, western, and central Afghanistan. (See page 4.)

However, the audit could not determine the precise number of farmers actually
benefiting from this activity or the extent to which the program inputs had contributed to
the increase in wheat production, because some of the reported results were deemed
unreliable. The results were flawed by serious irregularities identified in the supporting
records documenting the farmers’ receipt of the wheat seed and fertilizer. Also, results

                                                                                           1
were overstated because of deficiencies in the calculations used to assess the activity’s
impact. In the case of the irregularities, which involved evidence that some of the wheat
seed and fertilizer may have been diverted and not received by the designated farmers,
the matter was referred to OIG Investigations for further investigative review. (See
pages 6–8.)

Regarding the program’s second goal―implementation of stabilization activities in the
southern provinces―the audit found that these activities were being implemented on a
smaller scale than the one envisioned. The activities were hindered by the hostile
security environment in these provinces, so that AVIPA could initiate its stabilization
activities in only a limited number of districts in each of the two southern provinces. In
light of the status and scale of activities completed at the time of the audit and projected
through the remaining months of the program, it appeared unlikely that the program
would be able to spend the $300 million in authorized additional funding by the
program’s termination date of August 31, 2010. (See page 9.)

As a result of the audit findings, this report contains three recommendations.          We
recommend that USAID/Afghanistan:

1. 	Require its implementer to establish appropriate procedures and controls to
    strengthen its monitoring of AVIPA program activities to ensure that intended
    beneficiaries receive program inputs and irregularities, such as those identified by
    this audit, are detected and addressed in a timely manner. (See page 7.)

2. 	Require its implementer to reassess the impact of its 2008─2009 wheat seed
    distributions using a justifiable methodology and report the results to the mission
    along with supporting calculations that clearly show the basis for the assessed
    impact. (See page 8.)

3. 	 Determine the amount of projected surplus funds under the program and reprogram
     these funds to make them available for other activities under this or other programs.
     (See page 10.)

The Office of Inspector General evaluated the mission’s response to the draft report and
determined that management decisions have been reached on recommendations 2 and
3 but such a decision has not yet been reached on recommendation 1. (See page 11.)
Management comments are included in their entirety in appendix II. (See page 14.)




                                                                                          2
BACKGROUND

In 2008, Afghanistan faced a growing food crisis brought on by a rise in global wheat
prices and a severe drought during the 2007─2008 planting seasons that resulted in a
sharp decline in domestic wheat production. As an emergency response to mitigate the
effects of the crisis, USAID developed the Afghanistan Vouchers for Increased
Productive Agriculture (AVIPA) Program, in cooperation with Afghanistan’s Ministry of
Agriculture, Irrigation, and Livestock. Specifically, AVIPA was designed to provide
accessible and affordable agricultural inputs―wheat seed and fertilizer―to drought-
affected subsistence farmers to promote the immediate production of wheat for the
fall/winter 2008 and spring 2009 crop seasons. The program distributed vouchers to
Afghan farmers, who used them to purchase wheat seed and fertilizer from local
agricultural suppliers at greatly reduced prices.

To implement the program, USAID signed a $33.2 million cooperative agreement with
International Relief and Development (implementer) on September 25, 2008, “to
increase access to seeds and fertilizer to 176,000 farmers to improve wheat yields and
food availability in the 2008 and 2009 agricultural season and to provide vulnerable
Afghan farmers with access to income generation opportunities.” Under this agreement,
program activities would be carried out over a 1-year period ending August 31, 2009.
During this period, the authorized funding level was increased to $60 million, while the
target number of beneficiaries was adjusted upward to 297,000 farmers.

In May 2009, a decision was made to transform AVIPA into a stabilization program that
would focus its activities in the southern provinces of Helmand and Kandahar. This
decision was prompted by the sudden cancellation of a 5-year agricultural program that
had been set to begin later that year, coupled with the U.S. military’s request that, in
preparation for the anticipated troop surge in the south that summer, USAID have
stabilization activities ready to be initiated as the troops cleared Helmand and Kandahar.

On August 20, 2009, acting on its earlier decision, USAID authorized a 1-year extension
of the program (through August 31, 2010), while also expanding the scope of activities
and increasing the level of funding by $300 million to $360 million. Most of this increase
($250 million) was allocated for stabilization activities, such as cash-for-work projects
and small grants, to be carried out in Helmand and Kandahar. The remaining funds
($50 million) were budgeted to continue voucher-distribution activities in the northern
provinces. As of December 31, 2009, cumulative obligations under the program totaled
approximately $185.2 million and expenditures were about $93.4 million.

AUDIT OBJECTIVE
As part of its fiscal year (FY) 2010 annual audit plan, the Regional Inspector
General/Manila conducted this audit to answer the following question:

•	 Has USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive
   Agriculture (AVIPA) Program been achieving its main goals of increasing wheat
   production and carrying out agriculture-related stabilization activities?

Appendix I contains a discussion of the audit’s scope and methodology.


                                                                                        3
AUDIT FINDINGS 

The audit found that USAID/Afghanistan’s AVIPA program 1 had contributed to the TPF   FPT




country’s increase in domestic wheat production by providing thousands of small farmers
throughout northern, western, and central Afghanistan with wheat seed and fertilizer.
However, the extent of the program’s role in this increase was unclear because some of
the reported results were found to be unreliable. The audit was unable to fully validate
57 percent of the cases reviewed due to irregularities found in the supporting records.
In addition, the program’s stabilization activities in the southern provinces of Helmand
and Kandahar were not being implemented as widely as had been originally planned.

     To mitigate the impact of a food crisis in Afghanistan brought on by drought and soaring
     wheat prices, AVIPA provided wheat seed and fertilizer to drought-affected Afghan
     farmers in the hopes of prompting an immediate increase in domestic wheat production.
     Starting with an initial target of 147,000 beneficiaries (farmers) in 9 provinces, coverage
     was later expanded to include 297,000 farmers in 18 provinces located in northern,
     western, and central Afghanistan.




Wheat seed provided to farmers in Afghanistan’s Baghlan Province in February 2009 under AVIPA’s
voucher distribution activity. (Photo furnished by IRD AVIPA)

Distribution operations commenced in November 2008 and continued in three separate
phases through June 2009. During this period, the program reported distributing wheat
seed and/or fertilizer to 296,920 farmers in all 18 provinces―essentially achieving the

1
PT   T The Afghanistan Vouchers for Increased Productive Agriculture (AVIPA) program includes activities under
         P




     both the original 1-year voucher distribution program and the subsequent $300 million expanded program
     (known as AVIPA Plus) authorized in August 2009, which are collectively referred to in this report as AVIPA.

                                                                                                               4
planned target. Total inputs distributed included 10,347 metric tons of wheat seed and
32,813 metric tons of fertilizer, with a combined value of $43.7 million. The seed was
planted over an estimated 192,741 jeribs 2 (38,548 hectares).
                                               TPF   FPT




     Although the quantity of wheat harvested in Afghanistan had increased substantially in
     2009―with yields from irrigated fields reportedly doubling in many provinces and more
     than tripling in rain-fed fields―most of this increase was attributed to abundant rainfall.
     An internal survey conducted by the implementer’s monitoring and evaluation
     subcontractor acknowledged that weather conditions were the primary factor, but the
     survey concluded that the inputs furnished under AVIPA also had contributed to the
     overall increase in wheat production and thus had a positive effect.

     During the program’s second year (September 1, 2009 to August 31, 2010), distributions
     continued in the same 18 provinces covered earlier, but with a revised target of 366,420
     new farmers. Despite the challenges associated with carrying out a distribution of this
     magnitude―including the logistical demands, supply issues, and time constraints―this
     activity was making progress toward achieving its target. As of December 14, 2009,
     distributions were ongoing in all 18 provinces and expected to be completed by late
     January 2010, with inputs distributed to 120,014 farmers (33 percent of the target).

     In addition to these distributions, the program had initiated stabilization activities—mostly
     cash-for-work and small-grant projects—in the southern provinces of Helmand and
     Kandahar. Key accomplishments to date under these activities included:

     •	 Cash-for-Work Projects. The program had initiated 38 cash-for-work projects―23
        in Helmand and 15 in Kandahar―employing 3,560 laborers (mostly farmers) on a
        series of work projects that generally involved the clearing of irrigation canals. As of
        December 14, 2009, these laborers had cleared a total of 67 kilometers of canals,
        removing almost 20,000 cubic meters of silt and debris.

     •	 Small-Grants Program. At the time of the audit, the program was processing
        contracts for 40 small grants, with a combined value of approximately $4.2 million.
        The grants primarily involved providing agricultural packages consisting of equipment
        and tools to individuals, cooperatives, and community groups.

     •	 Research Farm. The program was also credited with rehabilitating a large farm in
        Helmand for use as an agricultural research and training site. The farm would be
        used for programs to train 500 to 600 farmers by the end of December 2009. Work
        to rehabilitate the site included clearing unwanted debris from the nursery section of
        the farm, installing a wire fence spanning 2,400 meters, and grafting more than
        140,000 fruit trees.

     Despite these accomplishments, however, the audit found that the results reported for
     the program’s earlier voucher distribution activities were not always reliable as
     evidenced by the widespread irregularities detected in the supporting records and
     questions surrounding the calculations used in assessing the impact of the distributions.
     In addition, the stabilization activities programmed for the southern provinces were found
     to be limited and did not achieve the scale originally envisioned.



2
TP   PT   Five jeribs equal 1 hectare.

                                                                                                5
Reported Results Were Not Reliable
 Summary USAID policy emphasizes the need for good data to form the basis for
 sound programming decisions. However, in reviewing the results reported for AVIPA’s
 distribution of wheat seed and fertilizer during the program’s initial year of operations
 (2008─2009), the auditors questioned the reliability of some of the reported results
 because of (1) irregularities identified in the supporting records documenting the
 distribution of these inputs to the farmers and (2) deficiencies in the methodology used
 to calculate the activity’s assessed impact. Both problems stemmed from weaknesses
 in the implementer’s monitoring of this activity. The actual results achieved under this
 activity, including its impact, were thus difficult to assess.

USAID’s Automated Directives System (ADS), chapter 203, emphasizes the need for
accurate performance data to ensure that managers make well-informed decisions and
report accurately to those outside the program.

Serious Irregularities Identified. In validating the reported results from AVIPA’s wheat
seed and fertilizer distributions during the program’s initial year of operations
(2008─2009), the audit team examined supporting records (voucher redemption logs)
documenting the distribution of wheat seed and/or fertilizer to farmers from selected
villages and provinces to verify that these inputs had been, in fact, received by the
farmers. This review covered the distribution records for 4,563 farmers from 183 villages
selected from among 7 of the 18 provinces participating in this activity.

The results of this review disclosed a high incidence of irregularities. Specifically, the
audit found that the voucher redemption logs, designed for farmer’s to certify receipt of
their wheat seed and fertilizer by marking the form with their fingerprints, often reflected
a series of what appeared to be matching fingerprints―because of their shape as well
as the presence of distinguishable marks or scars―suggesting that the same person or
persons had certified receipt of the distributed goods. Of the 4,563 distribution entries
tested, the audit team identified 2,582 cases (56.6 percent) involving such irregularities.
An example from one log is shown below.




 Excerpt from an AVIPA voucher log showing what appear to be a series of matching fingerprints.


                                                                                                  6
Further testing performed on other program activities (e.g., cash-for-work projects and
training) revealed similar irregularities, suggesting a systemic problem. For example, a
review of the timesheets supporting the work performed by cash-for-work laborers on
selected projects in Helmand Province disclosed additional cases of what appeared to
be identical fingerprints appearing in the column where laborers were required to place
their fingerprint to certify that recorded entries represented the time actually worked.

The audit found other indications that program inputs may not have always reached the
intended beneficiaries. For example, the audit team obtained information from the
implementer’s monitoring and evaluation subcontractor acknowledging that some inputs
had been misallocated and not received by the targeted farmers and citing cases of
beneficiary lists that contained the names of nonexistent people.

These cases reflect inadequate monitoring by the implementer. Program records, for
example, indicated that during the initial distributions of wheat seed and fertilizer, the
implementer’s monitoring of activities was inconsistent, and distribution methods often
varied from one province to another. In one province, for example, a subcontractor
delivered wheat seed and fertilizer to the village development councils or local shura 3                              TPF   FPTP




representatives, who were instructed to distribute the inputs to the designated farmers in
     P




their respective communities, with little oversight provided by the implementer over these
distributions to ensure that the farmers actually received the inputs. Also, the fact that
the irregularities identified by the auditors had gone undetected by the implementer
further demonstrates the need for stronger oversight.

Without accurate and reliable performance information, USAID management and
stakeholders cannot accurately assess the progress of the program and actual
accomplishments to date, and in turn might make inappropriate programming decisions.
To address this deficiency, we are recommending the following:

                Recommendation 1. We recommend that USAID/Afghanistan require its
                implementer to establish appropriate procedures and controls to strengthen its
                monitoring of Afghanistan Vouchers for Increased Productive Agriculture
                Program activities to ensure that intended beneficiaries receive program inputs
                and to detect irregularities, such as those identified by this audit, and address
                them in a timely manner.

Although the audit could not ascertain whether fraud or abuse was involved, the
irregularities remain a source of major concern because they indicate that AVIPA inputs
may have been misallocated and not received by the intended beneficiaries as reported.
Since this matter warrants additional followup, it has been referred to the mission’s
onsite OIG investigator for further investigative review.

Assessed Impact Overstated. To assess the impact of AVIPA’s voucher distribution
activities during its initial year of operations, the implementer relied on the results of an
assessment conducted by its monitoring and evaluation subcontractor. This assessment
found that wheat production had increased substantially from 2008 to 2009 and
attributed the increase primarily to abundant rainfall in 2009. However, the assessment
reported that inputs furnished under AVIPA also had contributed to the increase. Those
inputs resulted in wheat production for AVIPA beneficiaries that was 11 percent higher
than that of nonbeneficiaries for irrigated wheat fields and 124 percent higher than that

3
TP       PT   A shura is a local committee of elders responsible for making decisions on behalf of their community.

                                                                                                                      7
of nonbeneficiaries for rain-fed fields. The implementer later reported these results to
USAID/Afghanistan in the implementer’s September 2009 quarterly performance report.

However, when the audit team reviewed the calculations supporting these results, the
method of computation for the reported increases was unclear. Staff directly involved in
the assessment could not provide a satisfactory explanation. For example, the audit
noted that the 2008 baseline data used in calculating the increases in yield between the
2008 and 2009 wheat harvests had been modified and reduced, for no justifiable reason,
resulting in a computed increase in production (i.e., impact) that was overstated. After
further discussion with the implementer’s staff, the audit team concluded that there was
insufficient basis to support the reported production increases.

Relying on their own calculations, the auditors determined that increases in harvest
yields for irrigated fields had actually been 1.3 percent less than those produced by
nonbeneficiaries―rather than 11 percent more, as reported―representing a significant
difference. Similarly, increases in average yields for rain-fed fields were found to be only
12 percent more than those for nonbeneficiaries, as opposed to the 124 percent
reported earlier―another significant overstatement.          Details of the audit team’s
calculations are shown in the following table.

                        Computed Increases in Wheat Production 

                                      Per Audit 


                                      Irrigated Wheat                         Rain-fed Wheat
      Description         Beneficiaries      Nonbeneficiaries      Beneficiaries    Nonbeneficiaries
Average wheat yield
(kg/jerib):                                                                                   
  -2008 wheat yield            486.4                449.6              102.9               80.1
  -2009 wheat yield            637.4                595.1              404.0              304.9
Increase in yield              151.0                145.5              303.1              224.8
Percentage increase             31.0                 32.4                  292.6            280.6
                                      Calculated Impact on Targeted Beneficiaries—Per Audit 
Percentage of
calculated impact                                  -1.3                              12.0


The audit considers the reported results of the program’s assessed impact to be
suspect, on the basis of the data shown above, and the mission should not accept the
results. Instead, they should be recalculated using a more reasonable and justifiable
methodology that clearly shows the basis for any assessed impact. To ensure that the
impact of this activity is accurately computed and reported, we recommend the following:

   Recommendation 2. We recommend that USAID/Afghanistan require its
   implementer to reassess the impact of its 2008—2009 wheat seed distributions
   using a justifiable methodology and report the results to the mission along with
   supporting calculations that clearly show the basis for the assessed impact.




                                                                                                       8
Stabilization Activities Were Not Being 

Implemented on the Scale Anticipated 

 Summary. Although a large amount ($250 million) of funding was authorized and
 allocated for stabilization activities in Afghanistan’s southern region, activities
 implemented to date in this region have been limited and were not expected to
 achieve the scale originally envisioned. This curtailment was caused largely by the
 hostile security environment, which severely limited the number of areas where
 activities could be initiated. As a result, the program was not expected to spend the
 entire amount authorized, leaving funds available to be reprogrammed.

Following its initial year of operations, the AVIPA program was modified into primarily a
stabilization program. Most of the $300 million in additional funding authorized under
this conversion ($250 million) was allocated for stabilization activities to be carried out in
the two southern provinces of Helmand and Kandahar. However, the audit found that
the stabilization activities implemented to date in this region had been limited and were
not expected to achieve the scale originally envisioned.

At the time of the audit fieldwork, in December 2009, records showed that stabilization
activities, consisting mostly of cash-for-work and small-grants projects, had been
initiated in both Helmand and Kandahar but that these activities were being carried out in
only a limited number of provincial districts. Helmand, for example, had ongoing cash-
for-work projects in only 3 of the province’s 13 districts and small-grants projects
concentrated in just 1. Activities in Kandahar, meanwhile, were limited to only 2 districts
because of a delayed rollout in Kandahar’s precarious security environment. As of
December 14, 2009, almost 4 months into the program’s 12-month extension, Kandahar
was just beginning to initiate its small-grants component, with 11 grants in the pipeline
awaiting signature and valued at approximately $1.4 million—representing only 4
percent of the total amount budgeted under this component ($35 million). In an
interview, the program’s provincial director indicated that while additional activities might
be initiated in the provincial capital at some future time, he felt that a significant
expansion beyond this into other districts would be unlikely between now and the
program’s termination date (August 31, 2010).

According to mission officials, AVIPA’s shift to a stabilization program was prompted by
a military request for support in preparation for the troop surge that was expected to take
place in southern Afghanistan in July 2009. USAID was asked to be ready to move in
and initiate stabilization activities as the troops secured the southern provinces of
Helmand and Kandahar. On the basis of assurances that this surge would secure both
provinces, the mission modified the scope of the program and funded it accordingly to
ensure that sufficient funds would be available to support this effort.

Unfortunately, the extent to which the two provinces were actually secured was far less
than anticipated, and AVIPA could initiate its activities in only a few districts. With fewer
areas to operate in, the program was not on track to spend the massive amount of
additional funding authorized ($300 million)―funding the implementer was expected to
spend during the brief 12-month extension period.

To a lesser degree, other contributing factors affected implementation as well, and
AVIPA field staff often had to contend with challenges that sometimes frustrated or even
hampered operations and efforts to initiate activities. Some examples include:

                                                                                            9
•	 Staffing. Since the initial rollout phase, the program has experienced difficulty in
   acquiring qualified local national staff, particularly engineers, for its southern field
   offices. Retaining staff has also been a problem. One AVIPA provincial director
   stated that several of his staff had resigned after receiving death threats.

•	 Governance. Attempts to gain government approval of proposed actions often
   became a slow and tedious process, especially in Kandahar, because of the weak or
   nearly nonexistent presence of local government and the lack of internal coordination
   at the district level. As a result, field staff had to spend inordinate amounts of their
   time explaining the program repeatedly to different officials and resolving various
   issues and misunderstandings.

•	 Corruption. Efforts to initiate activities were also hampered by the high level of
   corruption within the local government. Some officials were only interested in
   knowing “what was in it for them,” thereby delaying the process and requiring more
   time and effort to obtain the necessary approvals and get things done.

•	 Requests from U.S. Government Officials. Another chronic problem, according to
   several AVIPA officials, involved the high volume of requests for information or ad
   hoc briefings that were being directed to AVIPA field staff from State Department and
   military (e.g., Civilian Affairs) personnel. Such inquiries have placed a strain on the
   field staff’s already heavy workload. In a few cases, non-USAID U.S. Government
   staff even attempted to provide direction to the implementer’s field staff, rather than
   going through the cognizant USAID agreement officer technical representative,
   apparently unaware that such direction was inappropriate.

As a result of these challenges as well as the operational restrictions stemming from the
hostile security environment, at the time of the audit the program seemed unlikely to be
able to spend the entire $300 million authorized for activities during the 12-month
extension period. During interviews with implementer staff―including the chief of
party―all acknowledged that the program would not be able to spend the entire $300
million authorized under the program’s earlier grant modification. On the basis of
spending levels at the time of our audit, the chief of party projected a surplus of about
$40 million to $50 million that he wanted to reprogram, preferably in conjunction with an
extension, to continue the voucher distribution activities in the northern provinces. He
felt the funds could have a much greater effect there given the improved security
situation in the region. As of December 31, 2009, cumulative obligations under the
program totaled approximately $185.2 million.

At the time of the audit, the mission and implementer were already discussing this issue
and reviewing possible options. We support this effort and agree that these funds
should be put to more effective use. Therefore, we recommend the following:

   Recommendation 3. We recommend that USAID/Afghanistan determine the
   amount of surplus funds projected to be available under its Afghanistan Vouchers
   for Increased Productive Agriculture Program and reprogram these funds to
   make them available for other activities under this or other programs in the
   mission’s portfolio.




                                                                                        10
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Afghanistan concurred with all three
recommendations. The Office of Inspector General reviewed the mission’s response to
the draft report and determined that a management decision has been reached on two of
the three recommendations (recommendations 2 and 3). The status of each of the three
recommendations is discussed below.

In response to recommendation 1, USAID/Afghanistan stated that following the audit
fieldwork, it had initiated discussions with the implementer with regard to its existing
monitoring practices. During these discussions, the implementer indicated that it had
increased its monitoring and evaluation staff for the entire program, with 135 personnel
dedicated specifically for the wheat seed and fertilizer distribution activity, while also
initiating monitoring of farm supply organizations. With regard to the stabilization
activities in the south, the implementer stated that it had hired expatriate field
coordinators to manage the activities within their districts. The mission further pointed
out that within the last 8 months, the number of U.S. Government personnel in the field
has significantly increased, with 250 employees now located in the provinces and
districts, thereby increasing monitoring capabilities. Also, the mission stated that it
planned to meet with the implementer to discuss the specific actions taken to strengthen
the procedures and controls over the wheat seed distributions and stabilization activities.
While we agree that having additional staff members in the field will help to improve
oversight capabilities, the program also needs more effective review procedures and
controls to detect the types of irregularities identified during this audit. As a result, a
management decision has not been reached on recommendation 1, pending further
information describing the specific procedures and controls that have been put into place
or strengthened to ensure that program inputs are received by the intended beneficiaries
and that irregularities, like those found during the audit, are detected and addressed in a
timely manner.

In response to recommendation 2, the mission stated that it would require the
implementer to undertake a new assessment of the yield from the 2008-2009 wheat
seed distribution and report the results to the mission along with supporting calculations
that clearly show the basis for the assessed impact. In light of the mission’s actions, we
conclude that a management decision has been reached on this recommendation.

In response to recommendation 3, the mission stated that new developments have
occurred since November 2009 (the time frame of the audit fieldwork) and the program
has initiated additional stabilization activities in both Helmand and Kandahar Provinces,
significantly increasing the number of activities being implemented in the region. As a
result, the implementer now projects that it will be able to expend its entire budget by the
end of the cooperative agreement on August 31, 2010. On April 1, 2010, the
implementer was asked to provide the mission with a monthly budget that clearly
outlines the basis for its projections on expending the remaining pipeline. This budget
has been received and is under mission review.                Because of the change in
circumstances and new developments that took place after the audit fieldwork, coupled
with the actions planned and already taken, we conclude that a management decision
has been reached on this recommendation.
                                                                                         11
                                                                                    Appendix I



SCOPE AND METHODOLOGY

Scope
We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of this audit was to determine whether the Afghanistan Vouchers for
Increased Productive Agriculture (AVIPA) Program was achieving its main goals. To
implement the program, USAID/Afghanistan signed a $33.2 million cooperative
agreement with International Relief and Development (the implementer).                   The
agreement was subsequently modified to increase the authorized funding level to
approximately $360 million and extend the 12-month program to 2 years. Of the
$360 million, $250 million was allocated for agriculture-based stabilization activities to be
carried out in the two southern provinces of Helmand and Kandahar. Most of the
remaining funds were budgeted for voucher distribution activities in northern, western,
and central Afghanistan. As of December 31, 2009, cumulative obligations totaled
approximately $185.2 million and expenditures were about $93.4 million.

The audit covered activities since the inception of the program in September 2008 and,
in general, involved (1) validating reported results associated with the wheat seed and
fertilizer voucher distribution activities during the program’s initial year of operations and
(2) assessing the status of program activities, particularly the stabilization activities in the
southern provinces, during the program’s second year of operations.

In validating the reported results for the program’s voucher distribution activity, the audit
reviewed supporting records pertaining to 4,563 beneficiaries (farmers), representing
approximately 1.5 percent of the 296,920 farmers receiving inputs under this activity.
The scope of this testing focused on 7 judgmentally selected provinces (from a total of
18) receiving wheat seed and/or fertilizer, from which the audit judgmentally selected 1
district from each province and selected villages (183 in total) within each district. In
each selected village, the auditors reviewed supporting records for all of the farmers
listed. Since the testing was based on a judgmental―not statistical―sample, the results
and overall conclusions related to this analysis were limited to the items tested and could
not be projected to the entire audit universe.

In addition, the audit team’s assessment of the program’s expanded operations during
its second year entailed a review of the accomplishments to date since the start of the
program’s 1-year extension period in August 2009 through December 14, 2009.

In planning and performing the audit, the audit team assessed relevant controls used by
the mission to manage the program and ensure that its implementer was providing
adequate oversight of program activities. Additionally, the auditors examined the
mission’s FY 2009 annual self-assessment of management controls, which the mission
is required to perform to comply with the Federal Managers’ Financial Integrity Act of
1982, to check whether the assessment cited any relevant weaknesses.


                                                                                             12
Audit fieldwork was performed at the USAID/Afghanistan Mission and the implementer’s
main program office, both located in Kabul, Afghanistan, from November 25 through
December 21, 2009. Also, the audit team made field trips to the northern provinces of
Panjshir and Parwan to observe voucher distribution activities taking place in these
provinces at the time of the audit. During these trips, the auditors traveled to several
districts where they visited 3 local distribution centers and interviewed a total of 40
farmers from 12 separate villages. In addition, the audit team traveled to the southern
province of Kandahar to interview program staff regarding the status of activities there
and to review supporting records for selected cash for work activities.


Methodology
To determine whether the program was achieving its main goals, the audit team initially
interviewed staff at USAID/Afghanistan’s Office of Agriculture and the implementer’s
main country office to gain an understanding of the program, all of the key players and
their roles and responsibilities, and the reporting procedures and controls in place for
monitoring the program. Further work to answer the audit objective was divided into two
parts: (1) validating the reported results of the program’s voucher distribution
activity―which entailed the distribution of wheat seed and fertilizer to farmers―carried
out during the program’s initial year of operations and (2) assessing the status of the
program’s recent activities, particularly the stabilization activities, during the second year
of operations starting in August 2009.

In validating the reported results under the program’s voucher distribution activity, the
auditors checked key reported results against supporting data contained in a database
maintained by the implementer. To test the accuracy of the data contained in this
database and verify the number of reported beneficiaries, the auditors checked the data
against supporting log sheets, completed at the distribution sites, documenting the
distribution of wheat seed and/or fertilizer to farmers and their confirmation of receipt.
Also, the audit team performed a detailed analysis of supporting calculations and data
used by the implementer as its basis for determining the reported impact of its voucher
distribution activity (e.g., increase in wheat production). In addition to testing the
voucher distribution activity, the auditors performed similar―but more limited―testing
for certain other activities, such as cash-for-work projects and training.

In assessing the status of the activities being carried out during the program’s second
year of operations, resulting from a major expansion in the program’s scope, the auditors
relied primarily on the implementer’s latest weekly progress reports (through
December 14, 2009), with interviews conducted with partner staff regarding specific
implementation problems and issues reflected in these reports. In addition, the auditors
visited selected voucher distribution sites to observe the continued distribution of wheat
and fertilizer and verify the receipt of these inputs by the beneficiaries. The audit also
included a review of applicable procedural guidance, including detailed flowcharts,
relating to the management of specific program components.

In assessing the testing results, the audit team established a materiality threshold of
80 percent that was based in part on the challenging environment in which the program
was operating particularly in the southern region. For example, if the implementer had
achieved at least 80 percent of its planned target for its voucher distribution activity, the
auditors concluded that the activity was achieving or had achieved its goal.


                                                                                           13
                                                                                 Appendix II



MANAGEMENT COMMENTS 



MEMORANDUM

TO:                    William S. Murphy, Acting Regional Inspector General/Manila

From:                  William M. Frej, USAID Mission Director

DATE:                  April 4, 2010

SUBJECT:               Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased
                       Productive Agriculture (AVIPA) Program (Agreement No. DFD-A-
                       009-00304-00) (Audit Report No. 5-306-10-00x-P)

REFERENCE:             WMurphy/WFrej memo dated March 5, 2010 “/s/”

Thank you for providing the Mission the opportunity to review the subject draft audit
report. We would like to express our gratitude for the professionalism, flexibility,
resourcefulness, and hard work exhibited by the audit team while travelling to several
insecure areas throughout Afghanistan to conduct field work. We are providing
confirmation of the actions that have been taken or are planned to be taken to address
the recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan require its
implementer to establish appropriate procedures and controls to strengthen its
monitoring of Afghanistan Vouchers for Increased Productive Agriculture
Program activities to ensure that intended beneficiaries receive program inputs
and irregularities, such as those identified by this audit, are detected and
addressed in a timely manner.

In principle, the Mission agrees with the recommendation. However, the Mission notes
the difficult environment in regards to the remoteness of the distributions and the sheer
volume of activity undertaken within a relatively short time frame. Many of these
irregularities were likely not detectable until well after the fact. In addition, the US
Mission has significantly increased the number of USG personnel, in some cases
located in districts, which has increased USG monitoring capabilities.

Finally, the Mission would like to point out the following quote in the report which cites
progress on this issue: "Despite the challenges associated with carrying out a
distribution of this magnitude ― including the logistical demands, supply issues, and
time constraints ― this activity was making progress toward achieving its target."



                                                                                             14
Actions Being Taken:

Immediately following the RIG debriefing on this topic, the Mission initiated discussions
with International Relief and Development (IRD) in regards to their monitoring practices.
IRD has indicated an increase in their monitoring and evaluation (M&E) staff for the
entire program, with 135 personnel dedicated specifically for the wheat seed and
fertilizer distribution activity; they have also initiated monitoring of farm supply
organizations. The M&E staff are separated from the rest of the staff to ensure
objectivity. For the stability activities in the south, IRD has hired expatriate Field
Coordinators who manage AVIPA Plus activities within their districts, which has
increased their oversight capabilities.

Within the last 8 months, US Government civilians are better represented in the field,
with nearly 250 USAID, USDOS, and USDA personnel located in the provinces and in
the districts. This has increased USG monitoring capabilities.

The Mission will meet with IRD this month to fully discuss their procedures and controls
that were strengthened to address the 2009/2010 wheat seed distribution, and what is in
place for the stability programming activities.

Based on the action above, the Mission deems that a management decision has been
reached and corrective actions are being taken to address audit recommendation No. 1,
and requests your concurrence.

Recommendation No. 2: We recommend that USAID/Afghanistan require its
implementer to reassess the impact of its 2008─2009 wheat seed distributions
using a justifiable methodology and report the results to the mission along with
supporting calculations that clearly show the basis for the assessed impact.

The Mission agrees with this recommendation.

Action To Be Taken:
The Mission will require IRD to undertake a new assessment of its 2008-2009 wheat
seed distribution using a justifiable methodology and report the results to the mission
along with supporting calculations that clearly show the basis for the assessed impact.
This will be communicated to IRD by April 7, 2010, with a requirement to complete the
assessment by the end of the Cooperative Agreement, on August 31, 2010.

Based on the action above, the Mission deems that a management decision has been
reached and corrective actions are begin taken to address audit recommendation No. 2,
and requests your concurrence.




                                                                                          15
Recommendation No.3: We recommend that USAID/Afghanistan determine the
amount of surplus funds projected to be available under its Afghanistan Vouchers
for Increased Productive Agriculture Program and reprogram these funds to make
them available for other activities under this or other programs in the Mission’s
portfolio.

The Mission agrees with this recommendation.

Actions Taken:
Since fall 2009, the Mission has been in constant discussion with IRD in regards to their
expenditures and capabilities to expend their entire budget within the one-year time
frame. Since November 2009, the program has also moved into new districts, including
Marjah in Helmand, and Zhari (Kandahar) and five municipal districts in Kandahar City,
significantly increasing implementation areas. We are also in discussion with IRD to
explore implementing in other districts around Kandahar City and in Helmand Province
that do not necessitate hiring more expatriates. On March 29, 2010, IRD indicated to the
AOTR that they will expend their entire budget by the end of the Cooperative Agreement
on August 31, 2010. On April 1, 2010, IRD was requested to provide a monthly budget
that clearly outlines its strategy towards expending their pipeline. The budget has been
received and is under Mission review.

By the end of April 2010, the Mission expects to release an Annual Program Statement
(APS) soliciting concept papers for a new regional southern agriculture program that
would follow on what IRD has been doing under AVIPA. The mission may elect to
reprogram unexpended funds under AVIPA to new programs solicited under the APS or
other new programs procured outside the APS.

Based on the actions above, the Mission deems that a management decision has been
reached and corrective actions are being taken to address audit recommendation No. 3,
and requests your concurrence.




                                                                                      16
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue NW 

          Washington, DC 20523 

           Tel.: 202—712—1150 

           Fax: 202—216—3047 

            www.usaid.gov/oig


                                              17
